DOE F 1325.8
(08-93)
United States Government.                                                         Department of Energy


Memorandum
        DATE:    September 28, 2007                              Audit Report No.: OAS-L-07-25
   REPLY TO
    ATTN OF:     IG-34 (A07TG028)
    SUBJECT:     Report on Audit of "Remote Access to the Department's Unclassified Information
                 Systems"
         TO:    Administrator, National Nuclear Security Administration, NA-1
                Under Secretary for Science, SC-1
                Acting Under Secretary of Energy, NE-1
                Chief Information Officer, IM-1

                INTRODUCTION AND OBJECTIVE

                To help accomplish its strategic goals and mission requirements, the Department of
                Energy (Department or DOE) utilizes numerous interconnected computer networks
                and individual systems, including ones accessed remotely. While remote access by
                authorized individuals can provide numerous advantages such as the capability to
                perform business-related functions, retrieve electronic mail, and access business
                applications while out of the office, allowing these capabilities can expose Department
                systems to an increased level of vulnerability to attack. For example, an authorized
                user working from his or her home computer system could inadvertently introduce a
                virus or allow an attacker access to the Department's networks and systems if the
                personally-owned system is not adequately protected.

                In 2002, our report on Remote Access to UnclassifiedInformation Systems (DOE/IG-
                0568, September 2002) identified that the Department had not adequately considered
                the risk associated with remote access to unclassified information systems, developed
                specific guidance for remote access security, or required protective measures such as
                personal firewalls and virus protection software. Because of the increasingly
                widespread use and evolving nature of risks regarding remote access, we initiated this
                audit to follow-up on our prior work and determine whether the Department had
                adequately secured its information and information systems from unauthorized remote
                access.

                CONCLUSION AND OBSERVATIONS

                Since our previous report the Department has taken a number of actions to secure its
                information and information systems from unauthorized remote access. For instance,
                Department-level policy was issued along with high-level guidance relating to remote
                access security. The Department has also focused heavily on protecting access to
                personally identifiable information (PII), which has, in turn, strengthened protections
                over remote access, such as the implementation of two-factor authentication tools.
Similarly, at the organizations visited, we observed that the actual practices for
protecting remote access were generally adequate. However, we found that the actual
practices noted above were generally ahead of efforts to ensure that the cyber security
documentation was up-to-date and reflected these modernized protective practices.

                     Actions Taken to Secure Information Systems

In response to our prior report and changes in Federal requirements, the Department
has taken a number of positive actions to improve remote access security. For
instance, in February 2004, the Department's Office of Chief Information Officer
(OCIO) issued Department of Energy Notice 205.11, which re-emphasized
requirements set in Federal law to employ a documented risk-based approach and set
forth minimum requirements for security of remote access to Department and
contractor information systems. The Notice required the program offices to
implement these requirements by May 2004.

The Department next issued Order 205.1A, which defined a Department-wide cyber
security management program. The Order allows the OCIO to define the technical
and management requirements (TMRs) to be implemented by each Under Secretary
organization and requires each Under Secretary to document TMR implementation in
Program Cyber Security Plans (PCSPs). The PCSPs serve as the overarching
direction to organizations under each Under Secretary's purview for implementing
program specific requirements and the requirements of the OCIO's TMRs. The sites
and organizations having responsibilities to each Under Secretary must be able to
demonstrate they have implemented requirements as set forth in the corresponding
PCSP through their own cyber security planning documentation and related activities.

In January 2007, the OCIO issued a guidance memorandum on remote access that
required senior Department managers to define - in their PCSPs - the policies,
processes, and procedures for allowing remote access to their systems from outside of
the systems' accreditation boundaries. The program offices were asked to incorporate
the guidance in their program-level direction by April 19, 2007. Finally, the.OCIO
issued TMRs covering remote access and the use of external information systems in
August 2007.

                      Updates to Cyber Security Documentation

While remote access practices at the organizations visited appeared to be generally
adequate, the cyber security documentation at both the program and site levels had not
yet been updated to reflect these efforts. In particular, the PCSPs issued by
Headquarters organizations did not always include adequate direction or policies and
procedures for allowing remote access to accredited systems. For example, the Office
of Science's PCSP covered remote access at a high level, but did not provide all
required guidance or direction to its program organizations or sites for implementing
remote access controls. Similarly, the Office of Environmental Management's PCSP
did not provide the essential guidance or direction to its program organizations or sites
for implementing remote access controls.


                                    2
Certification and accreditation documentation from six Department sites also did not
specify requirements for remote access or for updating PII protections. Specifically,
although the necessary management, operational, and technical controls relating to
remote access appeared to be in place, they were not adequately outlined in the site-
level cyber security program plans. Details describing security-related patching of
operating system and application software, updates for anti-virus scanners, and
minimum requirements for configuration on equipment used for remote access were
also not included.

SUGGESTED ACTIONS

To ensure that remote access risks and associated protective measures can be
adequately evaluated and implemented, we suggest that the Administrator, National
Nuclear Security Administration, Under Secretary for Science, and the Under
Secretary of Energy, in coordination with the Chief Information Officer, update
PCSPs and requirements for governing remote access to accredited systems, consistent
with the Department's technical and management requirements as well as guidance
from the National Institute of Standards and Technology.
                                /
Since no formal recommendations are being made in this report, a formal response is
not required. We appreciate the-cooperation of your staff during this audit.
                                    e&$1

                                        Rickey R. Hass
                                        Assistant Inspector General
                                          for Financial, Technology, and Corporate Audits
                                        Office of Audit Services
                                        Office of Inspector General

Attachment

cc:   Chief of Staff
      Team Leader, Audit Liaison, CF-1.2
      Director, Policy and Internal Controls Management, NA-66
      Audit Liaison, EM-33
      Audit Liaison, FE-3
      Audit Liaison, IM-10
      Audit Liaison, HS-1.23
      Audit Liaison, SC-32.1




                                    3
                                                                              Attachment

                           SCOPE AND METHODOLOGY


SCOPE AND METHODOLOGY

Fieldwork on the follow-up audit of Remote Access to the Department of Energy's
(Department) Unclassified Information Systems was performed between November
2006 and August 2007 at several Department locations. To accomplish the audit
objective, we:

      *   Reviewed applicable laws, regulations, and guidance pertaining to remote
          access to information systems. We also reviewed relevant reports issued by
          the Office of Inspector General and the Government Accountability Office;

      * Reviewed the Government Performanceand Results Act of 1993 and
        determined if performance measures had been established for remote access;
                                 /
      *   Held discussions with Department officials and personnel from the field sites
          and obtained and reviewed relevant cyber security documentation regarding
          remote access practices; and,

      * Examined configuration settings and practices for obtaining remote access to
        the Department's networks via selected systems.

The audit was performed in accordance with generally accepted Government auditing
standards for performance audits and included tests of internal controls and
compliance with laws and regulations to the extent necessary to satisfy the audit
objective. Accordingly, we assessed significant internal controls and performance
measures under the Government Performanceand Results Act of 1993 regarding
management of remote access services. Because our review was limited, it would not
necessarily have disclosed all internal control deficiencies that may have existed at the
time of our audit. We did not rely on computer-processed data to accomplish our
audit objective. We discussed the results of our audit with Department representatives
on September 27, 2007.




                                     4
